APPENDIX A—Court of appeals En
Banc Ruling (June 12,
2020)

r
$

la

Case: 19-1578

Document: 46

Page: 1

Filed: 06/12/2020

NOTE: This order is nonprecedential.

■*>

tHnttei) States Court of Appeals
for tfje Jfeberal Circuit
JOSEPH H. MARTIN,
Petitioner
v.
DEPARTMENT OF HOMELAND SECURITY,
Respondent
2019-1578

/

Petition for review of the Merit Systems Protection
Board in No. DE-0752-17-0341-I-2.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, Newman, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.
ORDER

«

Petitioner Joseph H. Martin filed a petition for re­
hearing en banc. The petition was first referred as a
petition for rehearing to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was

APPENDIX B—Court of Appeals
Panel Ruling (April 20.
2020)

i

3a

Case: 19-1578

Document: 38

Page: 1

Filed: 04/20/2020

NOTE: This disposition is nonprecedential.

n

fHniteb States Court of Appeals
for tfje Jfeberal Circuit
JOSEPH H. MARTIN,
Petitioner
v.
DEPARTMENT OF HOMELAND SECURITY,
Respondent
2019-1578
Petition for review of the Merit Systems Protection
Board in No. DE-0752-17-0341-I-2.
Decided: April 20, 2020
JEFFREY H. Jacobson, Jacobson Law Firm, Tucson,
AZ, for petitioner.
BORISLAV KiJSHNIR, Commercial Litigation Branch,
Civil Division, United States Department of Justice, Wash­
ington, DC, for respondent. Also represented by JOSEPH H.
Hunt, Tara K. Hogan, Robert Edward Kirschman, Jr.
Before NEWMAN, Dyk, and WALLACH, Circuit Judges.

Case: 19-1578

Document: 38

Page: 2

Filed: 04/20/2020

MARTIN v. DHS

2

Per Curiam.
Joseph H. Martin appeals a decision from the Merit
Systems Protection Board (“Board”) sustaining Mr. Mar­
tin’s removal from the Department of Homeland Security,
Customs and Border Protection (“DHS” or “agency”). Mr.
Martin was removed for conduct unbecoming a Customs
and Border Protection Officer (“CBPO” or “customs of­
ficer”), lack of candor, and failure to follow a non-disclosure
warning. We affirm.

Background
Mr. Martin is a former DHS customs officer and former
chapter president of the National Treasury Employees Un­
ion (“union”). In 2015, the DHS Office of Inspector General
(“OIG”) received complaints from two agency employees,
Ms. Lozoya and Ms. Demara, that, while discussing union
matters off-duty, Mr. Martin made sexually inappropriate
comments to each of them about these employees’ provid­
ing sexual favors to him in exchange for union services.
DHS OIG opened an investigation and interviewed Ms.
Lozoya and Ms. Demara. OIG then recorded, with the con­
sent of Ms. Lozoya and Ms. Demara, Mr. Martin’s tele­
phone conversations with both employees, and made a
video recording of Mr. Martin’s meeting with Ms. Demara
in a hotel room. In the telephone recordings, Mr. Martin
referred to the employees as having an “IOU” list with him;
he discussed spanking them; and he made comments such
as ‘Who’s your daddy?” and “It’s your daddy.” J.A. 5-6, 10,
12. During the video recording, Mr. Martin referred to one
of his supervisors, Jimmy Tong, with a racial slur.

4

In the course of its investigation, on November 24,
2015, DHS OIG interviewed Mr. Martin. Despite being
provided with a warning not to disclose investigative infor­
mation, Mr. Martin sent a packet of materials related to
the investigation to Mr. Tong. On February 11, 2016, dur­
ing a second interview with OIG, Mr. Martin repeatedly
stated that he did not “recall” or “remember” whether he

Case: 19-1578

MARTIN v. DHS

Document: 38

Page: 3

Filed: 04/20/2020

3

had made certain sexually suggestive or racially inappro­
priate comments towards employees. J.A. 20—21.

v

1

On June 12, 2017, Mr. Martin was removed from his
position for charges of 1) conduct unbecoming a CBPO
(three specifications); 2) lack of candor (two specifications);
and 3) failure to follow a non-disclosure warning (three
specifications). Mr. Martin appealed his removal to the
Board. The Administrative Judge (“AJ”) issued a decision
on November 28, 2018, sustaining three out of the eight
specifications made by the agency and determined that re­
moval was the appropriate penalty. For the first charge of
“conduct unbecoming a CBPO,” the AJ found that although
Mr. Martin made “crass and boorish” comments to Ms.
Lozoya and Ms. Demara, he found that there was no impli­
cation that they should “provide him with sexual favors in
order for him to represent” them in disputes with manage­
ment. J.A 9, 14. The AJ found however that Mr. Martin’s
use of a racial slur regarding his supervisor had “no legiti­
mate purpose” and sustained the charge on that ground.
J.A. 15.
The second charge, “lack of candor” was sustained be­
cause the AJ found that Mr. Martin was attempting to “de­
flect the investigation” in testifying that he did not recall
whether he had made certain sexually suggestive or ra­
cially inappropriate comments towards employees.
J.A. 26. The AJ was persuaded by the fact that “these crass
comments were [Mr. Martin’s] everyday banter” and he
thus “should have remembered making these statements.”
J.A. 26. The AJ was not convinced that medication contrib­
uted to Mr. Martin’s lack of recollection because there was
no “medical testimony” to this effect, and because his an­
swers to other questions were “inconsistent with [Mr. Mar­
tin’s] claims that the medication impacted his memory and
concentration.” J.A. 27.
The AJ sustained the third charge, “[failure to follow
[a] non-disclosure warning,” because Mr. Martin “by

Case: 19-1578

Document: 38

Page: 4

Filed: 04/20/2020

MARTIN v. DHS

4

sending . . . documents to [Mr.] Tong, . . . disclosed investi­
gative information to an individual outside DHS OIG and
not involved in the investigation,” violating the nondisclo­
sure warning. J.A. 31.
Yj

The AJ found that the agency did not commit an unfair
labor practice by recording employees while they discussed
union business, finding the recording to be “a proper exer­
cise of management’s rights.” J.A. 36. The AJ noted that
even if a union representative-bargaining unit member
privilege exists in this context, it was waived by Ms. Lozoya
and Ms. Demara when they agreed to the recordings. He
also found that Mr. Martin’s Fourth Amendment rights
were not violated because Ms. Lozoya and Ms. Demara con­
sented to the recordings, and, moreover, that the exclusion­
ary rule “does not apply to administrative proceedings.”
J.A. 38 (quoting Fahrenbacher v. Dep’t of Veterans Affairs,
89 M.S.P.R. 260, f 14, n.5 (M.S.P.B. 2001)). Finding a
nexus between the sustained charges and the efficiency of
the service, the AJ affirmed the agency’s removal of Mr.
Martin from federal service.
Mr. Martin did not petition the Board for review. The
AJ’s decision became the final decision of the Board. Mr.
Martin seeks review directly by this court. We have juris­
diction under 28 U.S.C. § 1295(a)(9).
Discussion

•I
0

We must sustain the Board’s decision unless it is: “(1)
arbitrary, capricious, an abuse of discretion, or otherwise
not in accordance with law; (2) obtained without proce­
dures required by law, rule, or regulation having been fol­
lowed; or (3) unsupported by substantial evidence.” 5
U.S.C. § 7703(c). Substantial evidence is “evidence that a
reasonable mind may take as sufficient to establish a con­
clusion.” Grover v. Office of Pers. Mgmt., 828 F.3d 1378,
1383 (Fed. Cir. 2016).

Case: 19-1578

Document: 38

Page: 5

Filed: 04/20/2020

5

MAKTIN v. DHS

I
On appeal, Mr. Martin argues that the Board erred in
considering the surveillance evidence gathered during the
OIG investigation. This argument appears to only affect a
single charge supporting Mr. Martin’s removal, that of con­
duct unbecoming a CBPO, which the Board sustained for
Mr. Martin’s use of a racial slur in OIG’s video recording.
We agree with the government that the Board did not err
in considering this material.
First, the fact that Mr. Martin was off-duty is not dis­
positive. We have previously noted that “adverse person­
nel actions may be taken for off-duty conduct if there is a
nexus between the conduct and the ‘efficiency of the ser­
vice.’” King v. Dep’t of Veterans Affairs, 248 F. App’x 192,
194 (Fed. Cir. 2007) (quoting Allred v. Dep’t of Health &
Human Servs., 786 F.2d 1128, 1130 (Fed. Cir. 1986)). We
have found “substantial evidence of a nexus” where “the in­
cident happened at her employer’s facility and involved a
supervisor.” Id. Similarly, here, as the Board noted, “the
misconduct involved a fellow agency employee and in­
volved an agency manager.” J.A. 39. The Board did not err
in considering Mr. Martin’s off-duty conduct.
Second, Mr. Martin urges us to apply the exclusionary
rule to the evidence collected by OIG in this investigation,
because it was “a substantial intrusion upon [Mr. Martin’s]
right to privacy” under the Fourth Amendment. Reply 26.
To the extent that the exclusionary rule applies to the
Board’s proceedings,1 ten of our sister Circuits have

1 The Supreme Court “ha[s] repeatedly declined to ex­
tend the exclusionary rule to proceedings other than crim­
inal trials.” Pa. Bd. of Prob. & Parole v. Scott, 524 U.S.
357, 363 (1998). The Board has held that “the Supreme
Court’s decisions regarding the application of the exclu­
sionary rule to proceedings other than criminal

Case: 19-1578

6

v

Document: 38

Page: 6

Filed: 04/20/2020

MARTIN v. DHS

concluded that “government interception of oral communi­
cations [i]s permissible where one party to the conversation
gave prior consent.” Holmes v. Burr, 486 F.2d 55, 56, 58
(9th Cir. 1973). The Board correctly pointed out that Ms.
Lozoya and Ms. Demara both “consented to the recordings”
of Mr. Martin. J.A. 38. The Board’s refusal to apply the
exclusionary rule was not error.
Third, Mr. Martin argues that the Board abused its dis­
cretion in not finding that the OIG committed an unfair la­
bor practice under 5 U.S.C. § 7116(a)(1) when it interfered
with confidential conversations between a union repre­
sentative and a bargaining union member. This court has
not recognized a union representative-bargaining unit
member privilege. To the extent that it exists, however, we
hold that it does not protect union representatives from
charges of misconduct based on discussions with unit mem­
ber employees.
This privilege appears to originate from a decision by
the Federal Labor Relations Authority (“FLRA”) in U.S.
Department of the Treasury Customs Service Washington,
D.C. (Respondent) & Nat’l Treasury Employees Union
(Charging Party), 38 F.L.R.A. 1300 (Jan. 8, 1990). In that
case, the privilege was recognized for the benefit of the em­
ployee: “that the employee be free to make full and frank
disclosure to his or her representative in order that the em­
ployee have adequate advice and a proper defense.” Id. at
1308 (emphasis added). In the few cases that have recog­
nized this privilege, the privilege has been asserted for the
benefit of protecting employee disclosures, not those of the
union representative. See U.S. Dep’t of Justice v. Fed. La­
bor Relations Auth., 39 F.3d 361, 368-69 (D.C. Cir. 1994);

■j

prosecutions do not provide a basis on which to extend the
exclusionary rule to Board proceedings.” Delk v. Dep’t of
Interior, No. DC0752920526-I-1, 1993 WL 190451, at *1
(M.S.P.B. June 3, 1993).

Case: 19-1578

Document: 38

M

Filed: 04/20/2020

7

MARTIN v. DHS

til

Page: 7

Bell v. Vill. of Streamwood, 806 F. Supp. 2d 1052, 1058
(N.D. Ill. 2011); Long Beach Naval Shipyard Long Beach,
California (Respondent) & Fed. Emps. Metal Trades Coun­
cil AFL-CIO (Charging Party/union), 44 F.L.R.A. 1021,
1038 (Apr. 29,1992). The union representative-bargaining
unit member privilege is analogous to the attorney-client
privilege, whose purpose is also to “to encourage full and
frank communication between attorneys and their clients.”
Upjohn Co. v. United States, 449 U.S. 383, 389 (1981). And
just as the attorney-client privilege “is that of the client,
not that of the attorney,” Am. Standard Inc. v. Pfizer Inc.,
828 F.2d 734, 745 (Fed. Cir. 1987), if there is a union rep­
resentative-bargaining unit member privilege, it belongs to
the employee and not the union representative. The Board
thus committed no error in holding that Mr. Martin could
not assert the privilege.
II
Mr. Martin additionally argues that the Board’s con­
clusion that the agency proved lack of candor is not sup­
ported by substantial evidence. We disagree.
The Board recognized that “to constitute lack of candor,
a misrepresentation or omission must have been made
knowingly.” J.A. 16. “Although lack of candor necessarily
involves an element of deception, ‘intent to deceive’ is not a
separate element of that offense . . . .” Ludlum v. Dep’t of
Justice, 278 F.3d 1280, 1284-85 (Fed. Cir. 2002). The
charge “may involve a failure to disclose something that, in
the circumstances, should have been disclosed in order to
make the given statement accurate and complete.” Id. at
1284.
The Board’s conclusion that Mr. Martin lacked candor
is supported by substantial evidence. The Board found
that Mr. Martin was not credible in testifying that he does
not recall whether he had made certain sexually suggestive
or racially inappropriate comments towards employees.
The Board considered the fact that “these crass comments

Case: 19-1578

8

\

Document: 38

Page: 8

Filed: 04/20/2020

MARTIN V. DHS

were [Mr. Martin’s] everyday banter” and he thus “should
have remembered making these statements.” J.A. 26. The
Board explained that Mr. Martin “had a duty to candidly
admit that he used such language, then offer an explana­
tion” and found that “[h]e elected not to do that
and . . . that he did so to deflect the investigation.” Id. (em­
phasis added).
Mr. Martin also faults the Board for not considering the
fact that he was on medication (Bumetanide) that allegedly
could cause memory loss in assessing the lack of candor
charge. The Board, however, concluded that “[t]here does
not appear to be a consensus that Bumetanide tablets im­
pact memory and concentration.”2 J.A. 27. The record only
shows that “trouble concentrating, confusion, [and]
memory loss” may be possible side effects of this medica­
tion for “people with liver disease,” which Mr. Martin ad­
mits he does not have. J.A. 27 (quoting print out from
Healthline.com). Moreover, the Board considered the fact
that “when the entire transcript of the interview is re­
viewed, there is no other portion where the appellant re­
sponds in this manner, which I find is inconsistent with his
claims that the medication impacted his memory and con­
centration.” J.A. 27. The Board thus properly considered
Mr. Martin’s arguments, and its findings are supported by
substantial evidence.
Finally, Mr. Martin argues that the agency did not clar­
ify which portion of the interview it was referring to in the
specification of the charge and that the Board substituted
its own basis for removal, rather than relying on what was
identified by the agency. He also argues that the Board
“abused [its] discretion by exceeding the scope of the

V

2 Contrary to Mr. Martin’s argument, the Board was
not improperly shifting the burden of proof to Mr. Martin.
Instead, the Board simply found that Mr. Martin did not
make a sufficient showing that his memory was impaired.

Case: 19-1578

Document: 38

Page: 9

Filed: 04/20/2020

9

MARTIN v. DHS

proposed removal letter” in comparing Mr. Martin’s an­
swers during the interview to those of his sworn statement.
Appellant’s Br. 17. Neither argument is persuasive.
The charge specified the topic of the questions and de­
scribed Mr. Martin’s response to them:
>1

[D]uring an interview with Special Agents of the,
[sic] DHS, OIG, you stated either “I don’t recall” or
“I don’t remember”, or words to that effect, to ap­
proximately ten (10) questions in a row asking
whether you had committed certain specific acts in
which you insinuated an employee must provide
you sexual favors for your performance of union
work on their behalf.
J.A. 20—21. Mr. Martin even admitted that he understood
which portion of the interview the charge referred to. The
Board thus did not substitute its own reasons for removal
for those provided by the agency.
The Board also did not rely on Mr. Martin’s sworn
statement to uphold the charge. The Board simply consid­
ered the number of different excuses Mr. Martin provided
for his evasive answers as supporting its findings that Mr.
Martin was not credible. Substantial evidence supports
the Board’s finding that Mr. Martin lacked candor in an­
swering certain questions during his second OIG interview.
Mr. Martin’s other arguments have been considered,
and we conclude that they likewise lack merit.
AFFIRMED

i

APPENDIX C—Administrative Law
Judge’s Final Decision (November 28,
2018)

12a

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
DENVER FIELD OFFICE

h

JOSEPH H. MARTIN,
Appellant,

DOCKET NUMBER
DE-0752-17-0341-1-2

V.

DEPARTMENT OF HOMELAND
SECURITY,
Agency.

DATE: November 28, 2018

Jeffrey H. Jacobson, Esquire, Tucson, Arizona, for the appellant.
Curtis C. Smith, Yuma, Arizona, for the agency.
Kristine E. King, Esquire, Yuma, Arizona, for the agency.
BEFORE
Glen D. Williams
Administrative Judge
INITIAL DECISION
INTRODUCTION
On June 25, 2017, the appellant timely filed his appeal from the agency’s
decision to remove him from federal service, effective June 12, 2017.

Initial

Appeal File (IAF-1), Tabs 1; 8 at 51. The Board has jurisdiction over the appeal
pursuant to 5 U.S.C. §§ 7511-7513. A videoconference hearing was held on May
1-2, 2018. IAF-2, Tabs 30-31 (Hearing Recording (HR)).
For the reasons set forth below, the agency’s action is AFFIRMED.

2
ANALYSIS AND FINDINGS
Background
At all times relevant prior to December 17, 2016, the appellant was
employed by the agency’s Customs and Border Protection (CBP) in the
competitive service position of Customs and Border Protection Officer (CBPO),
GS-1895-12, at the Port of San Luis, Tucson Field Office, Arizona. IAF-1, Tab 8
at 51. Again, at all times relevant, the appellant also served as the President of
the National Treasury Employees Union (NTEU) Local 116. HR, appellant; IAF1, Tab 12 at 50.
On or about May 13, 2015, the Department of Homeland Security (DHS)
Office of Inspector General (OIG) initiated an investigation of the appellant after
receipt of an allegation that he made “sexual innuendos and inferred sexual favors
for union services during interaction” with a bargaining unit employee. IAF-1,
Tab 12 at 13.

On or about June 16, 2016, DHS OIG issued its Report of

Investigation (ROI). IAF-1, Tabs 12-14.
On January 27, 2017, Brad Capponi, Discipline Review Board (DRB),
proposed the appellant’s removal based on the three charges: (1) Conduct
unbecoming a CBPO (3 specifications); (2) lack of candor (2 specifications); and
failure to follow nondisclosure warning (3 specifications).1 IAF-1, Tab 12 at 5-8.

i

Charge No. 1, Specifications Nos. 1 and 2, and Charge No. 2, Specification No. 2, are
somewhat vague, but the appellant did not allege that they were so vague as to
constitute a due process violation. Pope v. U.S. Postal Service, 114 F.3d 1144, 1148
(Fed. Cir. 1997) (due process requires the agency’s charges as set forth in the notice of
proposed removal to provide sufficient detail to allow the employee to make an
informed reply). Moreover, I find that the ROI supplements the charge letter and these
specifications, and provided sufficient specificity to allow the appellant to respond and
defend against the charge and, thus, the agency provided adequate notice. See, e.g.,
Gilmore v. U.S. Postal Service, 103 M.S.P.R. 290,
7-14 (2006), aff’d, 232 F. App’x
276 (Fed. Cir. 2008); Mason v. Department of the Navy, 70 M.S.P.R. 584, 586-588
(1996).

3
The appellant made an oral reply with written exhibits on March 28, 2017.
IAF-1, Tabs 8-11.
On June 9, 2017, Hector Mancha, Director, Field Operations, issued a
decision letter sustaining Charges Nos. 1 and 2, and all of the specifications
contained therein, and Charge No. 3, Specifications Nos. 1 and 2 (but not
sustaining Specification No. 3). IAF-1, Tab 8 at 53-57. Mancha further found
disciplining the appellant for his sustained misconduct would promote the
efficiency of the service.

Moreover, after discussing the relevant Douglas

factors,2 he determined that removal was the appropriate penalty.

Id.

The

removal was effective June 12, 2017. Id. at 51.
On June 25, 2017, the appellant timely appealed the agency’s action. IAF1, Tab 1.
The appeal was dismissed without prejudice on December 29, 2017, and
timely refiled on February 2, 2018. IAF-1, Tab 38; IAF-2, Tab 1.
The record closed on May 2, 2018, at the conclusion of the hearing. IAF-2,
Tab 31.
Applicable law and burdens of proof
The agency has the burden of proving its charges by a preponderance of the
evidence.3 5 C.F.R. § 1201.56(b)(l)(ii). An agency’s decision to discipline a
federal employee must have a “rational basis.”

Kmiecz v. Department of the

Army, 29 M.S.P.R. 673, 676 (1986). When an employee challenges an adverse
action, the agency must establish three things. Pope, 114 F.3d at 1147. First, the
agency must prove, by a preponderance of the evidence, that the charged conduct
occurred. Pope, 114 F.3d at 1147 (citing 5 U.S.C. § 7701(c)(1)(B)). Second, the

2 Douglas v. Veterans Administration, 5 M.S.P.R. 280, 306-07 (1981).
3 A preponderance of the evidence is the amount of relevant evidence that a reasonable
person, considering the record as a whole, would accept as sufficient to find that a
contested fact is more likely true than untrue. 5 C.F.R. § 1201.4(q).

4
agency must establish a nexus between that conduct and the efficiency of the
service. Pope, 114 F.3d at 1147 (citing 5 U.S.C. § 7513(a); Hayes v. Department
of the Navy, 727 F.2d 1535, 1539 (Fed. Cir. 1984)).

Third, the agency must

demonstrate that the penalty imposed is reasonable.

Pope, 114 F.3d at 1147

(citing Douglas, 5 M.S.P.R. at 306-07).
In this decision, to resolve issues of credibility and the weight to be given
written statements and other documentary evidence, I have been guided by
Borninkhof v. Department of Justice, 5 M.S.P.R. 77, 83-87 (1981), and Hillen v.
Department of the Army, 35 M.S.P.R. 453, 458 (1987).

According to Hillen,

when resolving issues of credibility, an administrative judge must identify the
factual questions in dispute, summarize the evidence on each disputed question,
state which version she believes, and explain in detail why she found the chosen
version more credible, considering such factors as: (1) the witness’s opportunity
and capacity to observe the event or act in questions; (2) the witness’s character;
(3) any prior inconsistent statement by the witness; (4) a witness’s bias, or lack of
bias; (5) the contradiction of the witness’s version of events by other evidence or
its consistency with other evidence; (6) the inherent improbability of the witness's
version of events; and (7) the witness’s demeanor. Id.
Charge No. 1: Conduct unbecoming a CBPO.
A conduct unbecoming charge may be proven by preponderant evidence
that the employee engaged in the conduct as described in the charge and that such
conduct was improper, unsuitable, or detracted from his/her character or
reputation. E.g., Social Security Administration v. Long, 113 M.S.P.R. 190,

42

(2010), aff’d, 635 F.3d 526 (Fed. Cir. 2011); Miles v. Department of the Army, 55
M.S.P.R. 633, 637 (1992).

Conduct may be deemed unsuitable and detracting

from an employee’s reputation if it reflects poor judgment on the part of the
employee. Miles, 55 M.S.P.R. at 637. Unless specified in the charge, the agency
is not required to show intent or that the conduct in question actually embarrassed

5
the agency.

See Crouse v. Department of the Treasury, 75 M.S.P.R. 57, 63

(1997) (charge of unacceptable and inappropriate behavior does not necessarily
indicate intentional misconduct, but an agency may incorporate element of intent
by claiming that the employee engaged in intentional misconduct or that conduct
was improper because of the employee’s intent), reversed on other grounds and
remanded sub nom. Lachance v. Merit Systems Protection Board, 147 F.3d 1367,
1371-72 (Fed. Cir. 1998).
Specification No. 1:
The agency alleged:
On or about October 2014, you made sexually inappropriate
comments to Import Specialist Zeidy Lozoya, implying that she
should provide you with sexual favors in order for you to represent
her as a National Treasury Employees Union (NTEU) representative.
IAF-1, Tab 12 at 5.
The DHS OIG ROI further discussed this specification, stating:
In October 2014, Martin met Lozoya in his hotel room in Nogales,
AZ, to consult over a nonselection matter. Lozoya had never met or
talked to Martin prior to this meeting. Lozoya alleged Martin made
statements in October of 2014 such as:
•

He could understand “why people don’t like you, you’re
young, pretty, and smart.” He further said that her case would
require him to do some research, consult with LER (CBP
Labor and Employee Relations), and he “would have to put it
on a credit card.” Lozoya said she did not understand what
Martin was referring to at first and Martin used the term credit
card numerous times.

•

“This is going to cost you little girl.”

•

“Have you ever slept with anyone in management? A lot of
people in Nogales are known to do that.”

Lozoya left Martin’s room and stated she felt that in order to receive
help from Martin, she would have to provide him with sexual favors.
Martin attempted to have Lozoya meet him in Tucson in a hotel room
to further discuss her case and stated again that he would have to
“put it on the credit card” and this would “cost you.” Lozoya never
met Martin in Tucson and had limited contact with him through text

6
messages. The DHS OIG had Lozoya re-contact Martin to discuss
union matters. Two recorded conversations between Lozoya and
Martin were captured. During one recoded [sic] conversation,
Martin greets Lozoya using the term “sweet cheeks” and tells Lozoya
he was going to have to bend her over his knee and give her a
spanking, referring to an email she had sent CBP management.
Martin told the [sic] Lozoya the email she had sent to management
had antagonized the situation. She needed to, “Get ready for your
spanking and say I liked it, I liked it.”
IAF-1, Tab 12 at 13-14.
Ziedy Lozoya, an Import Specialist at the Nogales Port of Entry in
Nogales, Arizona, testified that in November of 2014,4 she was passed over for a
promotion. HR, Lozoya. She stated that she contacted Anna Parada, her NTEU
steward, and Parada told her to contact the appellant.

She called the appellant

and he told her that he would be in Nogales for other matters and they could meet
then. Id.
Later in November of 2014, Lozoya met with the appellant in his hotel
room at the Candlewood Suites hotel in Nogales. She was nervous and concerned
that the meeting was taking place in a hotel room.

At the beginning of their

meeting, she turned down the appellant’s offer of a beer. The appellant opened a
beer for himself and they sat at the desk in the living room area of the suite. She
did not consider the appellant’s conduct to be professional, in that he was dressed
casually and he cursed a lot. She testified that early in their conversation, the
appellant stated, “I can see why they don’t like you. You’re smart, you’re young,
and you’re pretty.” Id. She stated that he then “went off on various people in
management.” Id.

4 It is unclear why the agency’s specification and the ROI synopsis identify the time
period as October 2014, because Lozoya’s testimony and various items in the ROI
consistently referred to November 2014. HR, Lozoya; IAF-1, Tab 12 at 27; Tab 13 at 9,
12.

7
She testified that she explained her case to the appellant and he stated, “It
is going to cost me and he was going to have to put in on the credit card.” Id. At
first, she did not know what he meant, so she ignored his comment. Id.
After the meeting with the appellant, she telephoned Parada, who told her
that is how the appellant is and how he spoke, and not to take it personally. Id.
Lozoya telephoned the appellant and requested that they meet again
regarding her issue. She suggested that they meet in a public place or her home
with her husband present, but the appellant stated they could meet in his hotel
room in Tucson, Arizona. She told him she was not comfortable with that and
that is why she had suggested the other locations; however, he refused to meet
with her if not at his hotel room.

During the telephone conversation, the

appellant again stated that he would have to put this on the credit card.

She

initially thought he was joking; however, she determined that he was not joking
because he kept repeating it. She never met with the appellant again because she
did not feel comfortable. Id.
Lozoya was interviewed by DHS OIG on May 13, 2015, and May 21, 2015.
IAF-1, Tab 12 at 27-28; Tab 13 at 12-13.

Lozoya’s testimony at hearing is

consistent with the summary of her DHS OIG interviews. Id.

Moreover, Lozoya

recorded numerous telephone calls with the appellant between May 22 and 26,
2015. IAF-1, Tab 18 at 7-17. During one of those conversations on May 26,
2015, the appellant was recorded referring to Lozoya as “Sweet Cheeks”. Id. at
13. Later in that conversation, the following occurred:
MR. MARTIN: So I’m going to make some calls on this anyways,
and try to - I’m going to have to - I’m going to have to - I’m going
to have to put you over my knee and give you a spanking for this
one, though.
MS. LOZOYA: A what?
MR. MARTIN: I’ll have to bend you over my knee and give you a
spanking for this one.
MS. LOZOYA: Why?

8
MR. MARTIN: Because you shouldn’t have sent that e-mail.
MS. LOZOYA: Oh.
MR. MARTIN: I mean, that’s
MS. LOZOYA: Been bad.
MR. MARTIN: No, but the problem is that you - by sending that email, you were antagonizing the situation. We’re trying to make it
look like she’s screwing, that she’s doing this.
MS. LOZOYA: Okay.
MR. MARTIN: So MS. LOZOYA: Yeah.
MR. MARTIN: So just get ready for the spanking, and just go I like
to did it, I like to did it [sic].
Id. at 15-16. These statements were not charged misconduct, and I consider them
solely as corroborating that the appellant engages in such coarse conversation.
The appellant testified that he has no recollection of a meeting with
Lozoya, but he admitted that he does use foul, crude, and sexually charged
language in his union activities. HR, appellant. However, he denied staying at
the Candlewood Suites in Nogales in October or November of 2014. Id. In that
regard, the appellant submitted a statement for his and CBPO Rodolfo Dibene,
Vice President, NTEU Local 116, NTEU credit card for October and November
of 2014, that show that the appellant’s card (5290) was used for stays at the
Holiday Inn Express in Nogales on October 28, 2014,5 and Dibene’s card (5308)
was used at for a stay at the Candlewood Suites in Nogales on October 31, 2014.
IAF-1, Tab 10 at 6.

I note that the Candlewood Suites and the Holiday Inn

Express in Nogales are adjacent to each other and share a parking lot.

HR,

appellant; IAF-1, Tab 8 at 49.
Parada testified that she met with Lozoya and as she was walking her out
from the meeting, Parada received a telephone call from the appellant stating that
5 The amount charged - $551.70 - indicates that the stay was for multiple nights. IAF1, Tab 10 at 6.

9
he was in Nogales. HR, Parada; IAF-1, Tab 10 at 11. She further testified that
Lozoya requested to meet with the appellant in-person. Id. However, she does
not know that Lozoya and the appellant ever actually met. HR, Parada. Parada
also testified that she told Lozoya that the appellant was blunt, straightforward
and vulgar. Id.
I find Lozoya’s testimony that she met the appellant in a hotel room to be
credible. See Hillen, 35 M.S.P.R. at 458. Her testimony regarding the layout of
the room and where she was situated was detailed and unguarded.

It is also

consistent with her prior sworn statement and I discern no bias on her part. I
further find her testimony consistent with Parada’s concerning the appellant being
in Nogales and that Lozoya wanted to meet with him. Lozoya’s testimony that
the meeting occurred at a Candlewood Suites is potentially contradicted by the
appellant’s credit card statement, but I nevertheless find that the meeting
occurred, whether it was at the Candlewood Suites or the Holiday Inn Express.
Similarly, I find Lozoya’s unrebutted testimony of what the appellant said during
their meeting to be credible. Id.

Her testimony regarding his statements was

detailed and unguarded, and is consistent with her prior sworn statement.

I

discern no bias on her part.
However, although I find the appellant stated to Lozoya, “I can see why
they don’t like you. You’re smart, you’re young, and you’re pretty,” and “It is
going to cost me and he was going to have to put in on the credit card,” I do not
find that these statements implied that she should provide the appellant with
sexual favors in order for him to represent her as an NTEU representative.
Specification No. 1 is NOT SUSTAINED.
Specification No. 2:
The agency alleged:
On or about July 2015, you made sexually inappropriate comments to
CBPO Cynthia Demara implying that she should provide you with

10
sexual favors in order for you to represent her as an NTEU
representative.
IAF-1, Tab 12 at 5.
The DHS OIG ROI further discussed this specification, stating:
The DHS OIG obtained several recorded telephone calls and
recorded in person meetings between Demara and Martin. The event
that predicated the recorded interactions was Demara’s reporting to
the DHS OIG that Martin inferred sex for union assistance after she
had filed a grievance. Demara was scheduled to meet Martin in
Tucson on July 8, 2015, in preparation for a meeting at the CBP
Office of Field Operations (OFO) the next day. During telephone
discussions, Martin tells Demara the following between July 2 and
July 7, 2015:
•

She owes him and it’s pay-up time.

•

Add this to the “I.O.U Joey list and he wants to hear I’ll take
care of you Joey.”

•

“It’s your Daddy.”

•

Add some things to the list of “I owe Joey,” and he doesn’t
want to hear any crap Wednesday night. [ ]

•

“That’s two more I.O.Us, overtime and a trip out of town,”
which Demara stated she was in debt and Martin tells Demara
she is totally in debt and to bring the I.O.U list with her.

Martin tells Demara the following in his hotel room and over the
telephone on July 8, 2015:
•

“Did you bring any lip balm? Cuz you’re gonna need it today
after we get done today.”

•

“Come on down and get it sweetheart, but you’re gonna have
to blow me for it,” in reference to Demara asking for the beer
Martin had purchased for her. [ ]

IAF-1, Tab 12 at 14.
On July 9, 2015, the appellant and Demara were scheduled to meet with
William Brooks, Director, Field Operations, Tucson Field Office, in Tucson
concerning a grievance filed on Demara’s behalf concerning a temporary duty
assignment in San Diego, California. HR, appellant, Demara; IAF-2, Tab 10 at
183, 185-186. Prior to that meeting, between July 2 and 7, 2015, Demara talked

11
with the appellant on the telephone six times regarding the July 9, 2015 meeting,
and on July 8, 2015, the appellant and Demara met at the Holiday Inn Express in
Tucson at which both were staying to prepare for the meeting the next day.
Demara recorded the telephone calls and wore a wire for DHS OIG at the
meeting.
During a telephone call on July 2, 2015,6 the following occurred:
MR. MARTIN: Shut down your schedule and we’ll meet Wednesday.
MS. DEMARA: Wednesday over there, in Tucson? Okay.
MR. MARTIN: Okay.
MS. DEMARA: Where
Thursday.

so I’ll have off Wednesday and off

MR. MARTIN: Yes. You’ll be (unintelligible) - yeah. Pretty much
you’ll be off Wednesday and Thursday.
MS. DEMARA: Wednesday and Thursday.
MR. MARTIN: For your daddy.
MS. DEMARA: You’re so stupid.
Brooks, or with who?

So but is it going to be with

* * *

MR. MARTIN: Don’t worry. We got all day and all night to prep
you.
MS. DEMARA: You’re so stupid.
MR. MARTIN: Hey, I
you.

you’re the one that owes me. I don’t owe

MS. DEMARA: Okay. All right.
MR. MARTIN: So it’s pay-up time now, woman.
MS. DEMARA: Whatever. Okay. All right.
IAF-1, Tab 18 at 17-20.
During a telephone call on July 6, 2015, the following occurred:

6 The transcripts of the telephone conversations do not identify the dates of the calls. I
have associated the dates with the calls using the DHS OIG Memorandum of Activity.
IAF-1, Tab 13 at 20-21.

12
MR. MARTIN: Jimmy’s going to be trying to hit you from the sides.
Trying to trip you up. Make you say something dumb.
MS. DEMARA: Okay.
MR. MARTIN: So that’s all right. Just add it to your IOU Joey list.
MS. DEMARA: Okay.
MR. MARTIN: Don’t be such - are you still - I don’t want to hear it.
Just say, okay (unintelligible) out. All right. I’ll take care of you,
Joey. That’s all I want to hear.
MS. DEMARA: You're so stupid.
Id. at 25.
During a telephone call on July 7, 2015, the following occurred:
MR. MARTIN: It’s your daddy.
MS. DEMARA: What’s up?
MR. MARTIN: Hey, a couple things here. First of all, add this to
your list of I owe Joey, and I don’t want to hear any crap on
Wednesday night.
MS. DEMARA: Okay.
MR. MARTIN: They were trying to fuck you.
MS. DEMARA: What do you mean they were trying to fuck me?
MR. MARTIN: They were trying to make you lie about Thursday.
MS. DEMARA: Uh-huh.
* * *

MR. MARTIN: So, you know, it is what it is. Don’t worry about it.
It’s taken care of. But just add it to your I owe Joey list. I think
what they wanted - they wanted to bang you - they wanted to bang
you for overtime tomorrow.
MS. DEMARA: Assholes.
MR. MARTIN: So I just say - well, actually, that’s two. That’s two
IOUs. I just saved you from overtime and it’s a trip out of town.
MS. DEMARA: Damn. I’m in debt.
MR. MARTIN: You’re totally in debt. Just bring the IOU list with
you and I’ll say, okay, you can (unintelligible) right here.
Id. at 30, 32-33.

13
On another telephone call from the appellant to Demara on July 7, 2015,
the appellant greeted Demara by saying, “Who’s your daddy?” Id. at 33.
On July 8, 2015, Demara met with the appellant in his hotel room. During
that meeting, the following occurred:
MR. MARTIN: Have you ever testified in court?
MS. DEMARA: No.
MR. MARTIN: Did you bring lip balm? Because you’re going to
need it after we get done today.
MS. DEMARA: Like no, I never have. I mean, I went with the
AUSA once, like for an interview. That was it.
MR. MARTIN: That’s not testifying in court.
* * *

MR. MARTIN: You, Mr. Tong, violated the contract. I didn’t. I'm
not being selfish here. You are.
This is why I’m your daddy. I’ve been thinking about this shit for
the last week.
Id. at 53-54, 61
After the first in-person meeting in the hotel room, Demara telephoned the
appellant to discuss the pending grievance meeting,

During that call, the

following occurred:
MS. DEMARA: Hey, you want to give me the beer, though?
Because I ordered pizza.
MR. MARTIN: Come on down here, sweetheart. But you’re going to
have to blow me for it.
MS. DEMARA: You’re so retarded.
MR. MARTIN: You come down and get it. I’ll be in my room in a
minute. All right.
MS. DEMARA: All right. Bye.
Id. at 40.
The appellant admitted making “sexually charged” comments to Demara,
but denied that those comments were intended to imply that she would be
required to provide him sexual favors in exchange for his representation in union

14
activity,

HR, appellant.

He further admitted that his comments were

unprofessional. Id.
I find that the appellant made the statements alleged by the agency.
However, while the appellant’s statements were crass and boorish, unworthy,
perhaps, of a gentleman, I do not find that the appellant implied that Demara
should provide him with sexual favors in order for him to represent her as an
NTEU representative.
Specification No. 2 is NOT SUSTAINED.
Specification No. 3:
The agency alleged, “On or about July 8, 2015, in a discussion with CBPO
Demara, you referred to Supervisory CBPO James Tong using a racial slur,
specifically, “chink.” IAF-1, Tab 12 at 5.
On July 9, 2015, the appellant and Demara were scheduled to meet with
William Brooks, Director, Field Operations, Tucson Field Office, in Tucson
concerning a grievance filed on Demara’s behalf concerning a temporary duty
assignment in San Diego, California. HR, appellant, Demara; IAF-2, Tab 10 at
183, 185-186. Prior to that meeting, on July 8, 2015, the appellant and Demara
met at the Holiday Inn Express at which both were staying to prepare for the
meeting the next day. At the July 8, 2015 meeting, Demara wore a wire for DHS
OIG and recorded the following:
MR. MARTIN: Depending on how - depending on how cheesy
Jimmy gets. Remember, he’s a chink. He comes from a - these
fuckers are smart.
MS. DEMARA: Yeah.
MR. MARTIN: You got to watch out for the chinks. I always tell
them you cheeky fucking bastards, (unintelligible) fucking doing.
IAF-1, Tab 18 at 55.
The appellant admitted that he referred to Tong as a “chink” during his
meeting with Demara to prepare her for her meeting regarding her grievance.
HR, appellant.

He stated that he did not say it to be offensive and was trying to

15
shock Demara to toughen her up for the meeting. He said this was in his role of
an advocate and he would not use that term when conducting agency business.
The appellant testified he had a good and personal relationship with Tong. Id. I
note that earlier in the conversation, the appellant told Demara, “What I’ll do is,
I’ll treat you like they’re going to treat you tomorrow. This is only going to take
about ten minutes, if that.” IAF-1, Tab 18 at 54.
I find that the appellant did refer to Tong as a chink. I further find the
appellant’s testimony that he was not trying to be offensive, but was merely using
the term to prepare Demara to be not credible. While during a grievance meeting
with management, a union representative is afforded leeway to promote zealous
advocacy, see Kennedy v. Department of the Army, 22 M.S.P.R. 190, 194 (1984)
and Farris v. U.S. Postal Service, 14 M.S.P.R. 568, 574 (1983), the meeting with
Demara was not the type of meeting where tempers flare in the heat of the
moment. And where it might be necessary to use racial pejoratives and ethnic
slurs in preparing for a discrimination matter - because, e.g., there are allegations
of such being used in the case - this was a grievance concerning temporary duty
assignment to San Diego and a potential violation of Article 38 of the applicable
collective bargaining agreement.

In this context, Tong’s ethnicity had no

relevance. From the clear context of the conversation, the appellant’s purpose
was to slur Tong, and I find no legitimate purpose for the appellant to call Tong
“a chink.”

Specification No. 3 is SUSTAINED.
Because at least one of the specifications was sustained, Charge No. 1 is
SUSTAINED.

Greenough v. Department of the Army, 73 M.S.P.R. 648, 657

(proof of one or more of the supporting specifications is sufficient to sustain the
charge), appeal dismissed, 119 F.3d 14 (Fed. Cir. 1997) (Table).

16
Charge No. 2: Lack of candor.
Lack of candor is a flexible charge that does not require proof of intent to
deceive. Ludlum v. Department of Justice, 278 F.3d 1280, 1284 (Fed. Cir. 2002).
In order to prove a lack of candor charge, an agency must prove that an appellant
was not fully forthcoming and candid with the agency as to all facts and
information relevant to the matter at issue, whether or not such information was
specifically elicited. See Ludlum v. Department of Justice, 87 M.S.P.R. 56, f 13
(2000), aff’d, 278 F.3d 1280. Lack of candor, as compared to falsification, “is a
broader and more flexible concept whose contours and elements depend on the
particular context and conduct involved.” O’Lague v. Department of Veterans
Affairs, 123 M.S.P.R. 340, Tf 13 (2016) (citing Ludlum, 87 M.S.P.R. at 1284),
aff’d, per curiam, 698 F. App’x 1034 (Fed. Cir. 2017).

A charge of lack of

candor does not require an affirmative misrepresentation, but “may involve a
failure to disclose something that, in the circumstances, should have been
disclosed to make the statement accurate and complete.” Id. Furthermore, while
lack of candor “necessarily involves an element of deception, ‘intent to deceive’
is not a separate element of the offense - as it is for falsification.”

Id. (citing

Ludlum, 87 M.S.P.R. at 1284-85). Nevertheless, to constitute lack of candor, a
misrepresentation or omission must have been made knowingly.

Id. (citing

Parkinson v. Department of Justice, 815 F.3d 757, 766 (Fed. Cir. 2016), aff’d, in
part and rev’d in part by 874 F.3d 710 (Fed. Cir. 2017) (en banc)).
Specification No. 1:
The agency alleged:
On or about November 24, 2015, during an interview with Special
Agents of the Department of Homeland Security (DHS) Office of
Inspector General (OIG), you alleged you had a prior sexual history
with CBPO Demara. You did not have a sexual history with CBPO
Demara.
IAF-1, Tab 12 at 5.

17
During his DHS OIG interview on November 24, 2015, the following
occurred:
Q. Do you have any history with her, other than this professional
contact?
A. As far as?
Q. Are you friends? Do you hang out at her house? Does she hang
out at yours?
A. No.
Q. Do you do anything outside of work together?
A. We’ve had a sexual relationship in the past.
Q. You have?
A. Yes.
Q. Okay. Tell me about that. When did that start?
A. I really don’t remember when it started.
Q. Okay.
A. It was a while ago.
Q. Were either one of you married?
A. When I was married.
Q. You were married?
A. Yes.
Q. Okay. So A. Yes. I’ve already told my wife.
Q. You told your wife.
Cynthia Demara?

Okay.

So you had a sexual affair with

A. Yes.
IAF-1, Tab 18 at 124-25; Tab 12 at 50.

Further, in a sworn statement dated

November 24, 2015, the appellant stated, “Mrs. Demara & I had in the past been
involved in a sexual relationship and have been for quite some time engaged in
shop talk of a sexual nature.” IAF-1, Tab 12 at 58.
The appellant admitted he made this claim at his November 24, 2015
interview. HR, appellant. Accordingly, I find that on November 24, 2015, during

18
an interview with DHS OIG, the appellant alleged he had a prior sexual history
with Demara.
Demara testified that she thought Special Agent Sarah Arrasmith, DHS
OIG, mentioned that the appellant alleged that the two of them had had a prior
sexual relationship. HR, Demara. She testified that it was “untrue completely.”
Id.

She testified that they never interacted outside the workplace and were not

friends. Id.
Arrasmith contacted Demara on November 24, 2015, after the appellant’s
interview, and on December 21, 2015, Arrasmith interviewed her regarding the
appellant’s assertion that he previously had an affair with her. IAF-1, Tab 13 at
43, 45. “Demara denied ever having a sexual affair with Martin and stated she
never engaged in sexual banter back and forth with Martin.” Id.; HR, Arrasmith.
Arrasmith testified that she believed Demara because there was no evidence in
support of the appellant’s claim.

HR, Arrasmith.

On December 21, 2015,

Demara provided a sworn statement, “My relationship with him has always been
on a professional level.... I have never socialized with Mr. Martin outside of
work. I have never had a sexual affair with Mr. Martin.” IAF-1, Tab 13 at 46-47.
The appellant testified that he had a “sporadic” sexual affair with Demara
beginning in 2010 and ending in approximately 2012.

HR, appellant.

He

testified that he did not recall many specifics. It was not “personal,” it was just
“sexual.”
Mervyn’s.”

He said they would go to the “no-tell hotel” behind “the old
They went there because the hotel took cash and he always paid

cash. Id. He testified that he disclosed the affair to his wife and Dibene after
receiving the “cease and desist letter” in September 2015. Id.
Patricia Martin, the appellant’s wife, testified that in approximately
September 2015, the appellant told her that he had an issue at work and he
disclosed that he had had an affair “with this girl from work.” HR, P. Martin.
She testified that she did not want to know the details from the appellant, but she
knew that the other woman was Demara and that the affair occurred “a couple of

19
years before... at an ugly hotel.” She also said that she had her suspicions even
before he disclosed to her. Id.
Martin did not observe the affair and I believe she would be biased toward
the appellant, as she has an inherent interest in her spouse maintaining his job.
However, I observed Martin’s demeanor while testifying.

She was upset and

crying while testifying, and demonstrated anger toward the appellant for having
done this to her
overwrought.

and her emotional state appeared appropriate and not

The way she looked up toward the ceiling while searching for

answers for why he had an affair denoted earnestness to me and, in my opinion,
everything about Martin’s demeanor indicated that she was truthful. While the
appellant potentially lied to his wife regarding having had an affair, I find
Martin’s testimony credible that the appellant told her he had an affair with
Demara. See Hillen, 35 M.S.P.R. at 458.
Similarly, Dibene testified that he has no first-hand knowledge regarding a
sexual relationship between the appellant and Demara. HR, Dibene. He testified
that in preparation for the November 24, 2015 interview, the appellant told
Dibene that he and Demara had an affair. Id. Dibene’s testimony is consistent
with Martin’s regarding the appellant’s disclosures of an affair around this time
period, and, although I note that the appellant and Dibene were both union
officers at the same time, I otherwise discern no bias on his part.

While the

appellant potentially lied to Dibene regarding having had an affair, I find
Dibene’s testimony credible that the appellant told him he had an affair with
Demara. See Hillen, 35 M.S.P.R. at 458.
Demara and the appellant clearly disagree on this fact. Demara, of course,
was in a position to know whether she had a sexual relationship with the
appellant. I discern a bias by her; however, in that she opposed the appellant and
the other union officers in union elections, and also had an EEO complaint
concerning the appellant.

I find the appellant’s testimony that she and the

appellant were not friends is contradicted by the testimony of Supervisory CBPO

20
Edgar Perez and Dibene concerning her interaction with the appellant.

HR,

Perez, Dibene. Moreover, the conversations recorded by Demara and DHS OIG
evidence an easy rapport between Demara and the appellant that certainly
indicates a level of friendship.

I observed Demara’s testimony and found her

claim that any allegation of a sexual history with the appellant were “untrue
completely” was underwhelming, at best, as was her lack of specific recall that
the appellant was making such a claim. She fidgeted and shifted in her seat while
testifying and gave a general appearance of not being earnest.
The appellant was similarly well placed to know whether he had a sexual
relationship with Demara, and I similarly discern a bias by him, in that he might
believe that a prior sexual relationship with Demara would absolve him of a
harassment claim. I observed the appellant’s demeanor while testifying regarding
the affair and noted that he was visibly upset and crying. This type of emotion
can be, and often is, fake; however, in this instance I observed no indications of
deception and his emotional state appeared genuine.

I find his testimony

regarding the relationship to have been sufficiently specific as to give it
credibility, although I would have anticipated even more detail. I find that the
appellant’s testimony is buttressed by Martin and Dibene’s testimony that he
disclosed the affair to both of them. His disclosure clearly caused a tremendous
amount of pain for Martin and although it is conceivable he was willing to inflict
that on her falsely in an effort to thwart the harassment claim, I am unwilling to
impute to him the ability to do that to his wife on such outside chance that it
would sufficiently insulate him from liability.

Weighing the relevant Hillen

factor for both Demara and the appellant, I find the appellant’s testimony more
credible. See Hillen, 35 M.S.P.R. at 458.
Accordingly, I find that the appellant’s statement that he and Demara had a
prior sexual relationship was truthful and his statement did not lack candor.
Specification No. 1 is NOT SUSTAINED.

21
Specification No. 2:
The agency alleged:
On or about February 11, 2016, during an interview with Special
Agents of the, [sic] DHS, OIG, you stated either “I don’t recall” or “I
don’t remember”, or words to that effect, to approximately ten (10)
questions in a row asking whether you had committed certain
specific acts in which you insinuated an employee must provide you
sexual favors for your performance of union work on their behalf.
You did so in order to not provide the information requested.
IAF-1, Tab 12 at 5.
During his DHS OIG interview on February 11, 2016, the following
occurred:
Q. Okay. So you did. All right. Got that. Next. Have you ever told
a female union member that you would take their case, but that you’d
have to charge their credit card?
A. I don’t recall that. Remember that.
Q. Okay. And I remember you - the last time we tried to talk to you
it was like pulling teeth. It wasn’t like a fountain, you know,
springing forward with information. Whenever we got into some of
these specific questions you couldn’t remember. Have you ever had
problems with your memory? Do you suffer from Alzheimer's or
dementia or anything like that?
A. My memory is pretty crappy.
Q. It is? Okay. As a federal law enforcement officer, you’re a trained
observer. You have a bad memory. Have you ever reported that?
Has your memory ever been so bad that you weren’t able to, you
know, execute your job?
A. No.
Q. Okay. Because as trained observers and law enforcement officers
we’re supposed to actually have a pretty sharp memory. I mean, you
know, let’s just - so I said ever. Why don’t we just limit the scope
then to the last 18 months. That should be easy enough.
A. I don’t know.
Q. In the last 18 months, you can’t remember if you ever told a
women [sic] to charge A. I don’t recall. I don’t remember.

22
Q. You know I’m going to ask you some specific questions, and if
you start with this I don’t remember on every one of them, it’s not
going to bode well.
A. If I don’t remember, I don’t remember.
Q. Okay. Have you ever told a female union member okay. Let me
just ask. Has a female union member ever inquired, during the
course of your consultation and/or representation, if they owe you
anything of additional value for you performing your duties as a
union steward to which you replied, I’m putting this on your credit
card?
A. I don’t remember that.
Q. Okay. Have you ever told female employees that they have that
they have IOUs, meaning, you know, they owe you something for
union services you have provided?
A. I don’t remember that.
Q. When dealing with female employees you represent, have you
previously said things like who’s your daddy or it’s your daddy,
when greeting them?
A. I don’t recall.
MR. MIERS: Okay. We may have a little more snippets. I’m not
sure.
MS. ARRASMITH: I say we get his answers.
Q. (BY MR. MIERS): We could actually jog your memory, if that’s
A. Jog it.
Q. We may. We may. Because, I mean, this, you know, having you
say over and over again, I mean, first of all, here we are. You’re
answering the questions all the way through, and then we get into
specifics and now you don’t remember,
That’s essentially
obstruction. It really is. I mean, I may have you - I may have to
pull out the management directive again and have you read it,
because you’re obstructing our questions.
A. I’m answering your questions.
Q. Again, I allege you’re not answering and your [sic] obstructing.
A. That’s your opinion.
Q. Well, it is my opinion, but I’m also the investigator conducting
this interview.

23
Have you ever engaged in sexual innuendoes towards female
employees that references physical sexual contact, such as flagging
[sic] the body, pulling the hair, spanking the buttocks, pinching a
woman’s nipples?
A. I don’t remember that.
Q. Okay. Have you ever told female employees that you have to that
they have to blow you, quote, unquote, for any services, assistance,
or just in general?
A. I don’t recall that.
Q. Okay. Again, I’m not just pulling this stuff out of thin air. I’m
wrapping these questions around evidence that we have, so
A. Okay.
Q. The Government alleges that we have you on audio clearly saying
these things. So if you say you don’t remember and if they were
within 18 months, we may have a separate issue that we’re going to
have to deal with, and that’s your medical fit for duty. When dealing
with female employees, have you ever gestured toward your genital
area in a sexual manner?
A. I don’t recall that.
Q. You don’t recall much. Have you ever used the sexual innuendo
oral dictation when dealing with female employees in the workplace?
A. I don’t recall that.
Q. Have you ever pointed under the desk you’re sitting at and
indicated to a female employee, in her presence, to get under the
desk and said so in a sexually aggressive manner?
A. I don’t recall that.
Q. In your federal workplace or anyplace in your capacity as a union
steward, have you ever referred to ethnic groups and racial slurs in
the presence of other employees or those who are representing non­
union matters?
A. I don’t recall that.
Q. Have you ever said to a female employee I hope you brought lip
balm, you’re going to need it, in a sexually suggestive manner?
A. I don’t recall that.
IAF-1, Tab 18 at 201-05.

24
On his February 11, 2016 sworn statement, the appellant stated he was
asked 43 questions by the Special Agents, including the following:
Q: Have ever [sic] told a female union member that you would take
their case, but that you'd have to charge their “credit card?” If no, or
I don't remember, would you think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: Has a female employee ever inquired, during the course of union
consultation and/or representation, if they owe you anything of
additional value for you performing your duties as union steward to
which you replied, “I’m putting this on your credit card.” If no, or I
don't remember, would you think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: Have you ever told female employees that they have “I.O.Us” for
union service you have provided them? If no, or I don’t remember,
would you think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: When dealing with the female employees you represent, have you
previously said things like, “who’s your daddy,” or “it’s your
daddy,” when greeting them? If no, or I don’t remember, would you
think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: Have you ever engaged in sexual innuendo towards female
employees that references physical sexual contact, such as flogging
the body, pulling hair, spanking the buttocks, pinching a woman’s
nipples? If no, or I don't remember, would you think doing this is
acceptable behavior.
A: I don’t remember that. It would depend on the context of the
conversation taking place.
Q: Have you ever told female employees that they have to, “blow
you,” for any services, assistance, or just in general? If no, or I
don’t remember, would you think doing this is acceptable behavior.
A: I don’t remember, It would depend on the context of the
conversation taking place.

25
Q: When dealing with female employees, have you ever gestured
towards your genital area in a sexual manner? If no, or I don't
remember, would you think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: Have you ever used the sexual innuendo “oral dictation” when
dealing with female employees in the work place? If no, or I don’t
remember, would you think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

Q: Have you ever pointed under the desk you are sitting at, and
indicated to a female employee in your presence to “get under the
desk”
said in a manner sexually suggestive such as sexual
innuendo? If no, or I don't remember, would you think doing this is
acceptable behavior.
A: I don’t remember that. It would depend on the context of the
conversation taking place.
* * *

Q: Have you ever said to a female employee “I hope you brought lip
balm, you’re going to need it,” -said in a manner sexually suggestive
such as sexual innuendo? If no, or I don't remember, would you
think doing this is acceptable behavior.
A: I don’t remember that.
conversation taking place.

It would depend on the context of the

IAF-1, Tab 12 at 81-83.
The appellant testified that he carefully considered his answers to the
questions.

HR, appellant.

He also testified that that he was under so much

pressure during the interview - and stated that Special Agent Brian Miers, DHS
OIG, was threatening him - that his mind went blank. Id. In this regard, I find
that appellant’s testimony to be contradictory.
The appellant testified that he carefully considered his answer when
responding to the question, “Have you ever told a female union member that you
would take their case, but that you’d have to charge their credit card?” HR,
appellant. At the time he responded - and provided the sworn statement - he

26
could not remember a time when he told a female union member anything like
that.

Id.

He noted that in his statement and in responding to a question

immediately preceding the series of questions at-issue, the following occurred:
Q: Have ever told female union members that you were representing
that they “owed” you for your assistance/services?
A: Other than Cynthia Demara, I don’t remember. With Demara, at
least once, but possibly more - I considered any mention of “owed”
as a joke or joking around.
IAF-1, Tab 12 at 81.
The appellant then testified that he thought that the series of questions
following this question and response referred to female union members other than
Demara. HR, appellant. The cited question and the ensuing questions referenced
“female union members” and Miers never excluded Demara.

It was only the

appellant that interposed the caveat regarding Demara and he took no steps to
further interpose this caveat or to indicate that his responses did not include
Demara. I find that that the appellant’s testimony is not credible and I further
find that he understood the questions covered his conversations with Demara
because, as evidenced by the cited question, he considered Demara to be a female
union member. In unilaterally excluding Demara, the appellant guaranteed that
his responses were not full and complete, and thus, he lacked candor.
I find the agency proved this lack of candor specification by more than
preponderant evidence. First, I find that the appellant’s responses to several of
the questions were incorrect. I find that the appellant did make a comment to
Demara regarding her needing lip balm and that this was made in a sexually
suggestive manner (IAF-1, Tab 18 at 53); that he made comments concerning
IOUs {Id. at 25, 32-33); that he made comments such as “It’s your daddy” and
“Who’s your daddy?” {Id. at 30, 33); and that he made comments concerning
spanking {Id. at 15-16).

Moreover, I find that the appellant should have

remembered making these statements because I find that these crass comments
were his everyday banter - and that is a large part of the reason that I did not find

27
that this language was meant to actually obtain sexual favors. The appellant had
a duty to candidly admit that he used such language, then offer an explanation.
He elected not to do that and I find that he did so to deflect the investigation.
I have considered the appellant’s testimony that he was taking Bumetanide
tablets at the time of his second DHS OIG interview and his belief that the
medication might have impacted his memory and ability to concentrate.

HR,

appellant. A print out from Healthline.com states:
More common side effects of taking this drug include muscle
cramps, dizziness, low blood pressure, headache, or nausea. It may
also cause trouble concentrating, confusion, memory loss, and
seizures caused by abnormal brain function in people with liver
disease.
IAF-1, Tab 10 at 94. However, a print out from drugs.com contains no similar
statement under its section on adverse reactions. IAF-2, Tab 21 at 187-188.
There does not appear to be a consensus that Bumetanide tablets impact
memory and concentration, but, moreover, I find the appellant’s vague and
ambiguous testimony standing alone, without additional medical testimony, to be
insufficient to establish that the appellant’s medication should explain his lack of
response to the relevant questions.

This is particularly so because, when the

entire transcript of the interview is reviewed, there is no other portion where the
appellant responds in this manner, which I find is inconsistent with his claims
that the medication impacted his memory and concentration.
Specification No. 2 is SUSTAINED.
Because at least one specification was sustained, Charge No. 2 is
SUSTAINED. Greenough, 73 M.S.P.R. at 657.
Charge No. 3: Failure to follow nondisclosure warning.
The agency proves a charge of failure to follow an instruction by showing
that: (1) the appellant was given a proper instruction; and (2) the appellant failed
to follow the instruction, without regard to whether the failure was intentional or
unintentional.

Hamilton v. U.S. Postal Service, 71 M.S.P.R. 547 (1996).

28
Ordinarily, an employee does not have an unfettered right to disregard an order
merely because he believes the order is not proper; he must first comply with the
order and register his complaint or grievance. See Nagel v. Department of Health
& Human Services, 707 F.2d 1384, 1387 (Fed. Cir. 1983) (although management
may be viewed as incompetent by an employee, this is no excuse for not doing
assigned duties). The Board has recognized, though, an exception to this rule in
certain limited circumstances when obedience would place the employee or others
in a clearly dangerous situation. Cooke v. U.S. Postal Service, 67 M.S.P.R. 401,
407-08, aff’d, 73 F.3d 380 (Fed. Cir. 1995) (Table); Gomez v. Department of
Agriculture, 63 M.S.P.R. 36, 39 (1994). Thus, an employee may be justified in
refusing an order if the employee reasonably believes his obedience would result
in his or someone else’s imminent death or serious injury.

See Larson v.

Department of the Army, 260 F.3d 1350, 1354-55 (2001); Blocker v. Department
of the Army, 6 M.S.P.R. 467, 469 (1981).
On November 24, 2015, Special Agents Arrasmith and Miers interviewed
the appellant concerning the complaints brought by Lozoya and Demara. IAF-1,
Tab 12 at 50-51; HR, appellant, Arrasmith. During the interview, the appellant
was given a “Verbal Disclosure Warning for Bargaining Unit Employees” that
stated in pertinent part:
“WARNING
TO
INFORMATION”

NOT

DISCLOSE

INVESTIGATIVE

You are being interviewed as part of a continuing, official
investigation by the U.S. Department of Homeland Security, Office
of Inspector General. As this investigation is sensitive in nature, you
are instructed not to discuss the nature of this interview with any
other person(s), except private legal counsel.
Failure to comply with this directive could subject you to
disciplinary and/or criminal action for interfering with or impeding
an official investigation.
Id. at 52.

29
The appellant confirmed that he received and understood this warning.
HR, appellant.

The appellant further stated that Miers told him during the

interview, “Don’t even tell God about this.” Id.
I find that the appellant was given this instruction and that it was proper.
Specification No. 1:
The agency alleged that on November 30, 2015 - after his DHS OIG
interview - the appellant provided a package containing approximately 110 pages
of material concerning Demara to Tong.

IAF-1, Tab 12 at 6.

Tong was not

involved in the DHS OIG investigation and the agency contends that supplying
this information to Tong violated the warning not to disclose investigative
information. Id.
On November 30, 2015, Tong received a package of approximately 110
pages with a cover note stating, “Mr. Tong, Here is a packet that has to do with
the Demara case hope this helps to shed some light and clear up some issues.
Please add to the investigative file. Chapter 116 President Joe Martin.” IAF-1,
Tab 13 at 61; Tab 14 at 98, 100.
On that same date, Tong emailed Arrasmith, stating:
November 30, 2015, I received an unsolicited package via registered
mail from Joe Martin containing approximately 110 plus pages of
Facebook posts, emails and cell phone logs with a handwritten cover
note.
The cover note states “Mr. Tong, Here is a packet that has to do with
the Demara case hope this helps to shed some light and clear up
some issues. Please add to the investigative file. Chapter 116
President Joe Martin.”
Since I have no direct involvement with the inquiry I will hold the
materials for your review.
IAF-1, Tab 14 at 100.

30
On December 14, 2015, Tong received a second package of materials from
the appellant.7 See Id. at 101.
On December 16, 2015, Tong emailed the appellant:
I am receipt of two unsolicited packages from you via registered mail
and FedEx, received on November 30, 2015 and December 14, 2015
respectively.
Since I have no direct involvement with the inquiry you reference I
have forwarded all materials to the investigative agency reviewing
your matter.
Id.
The appellant admits sending the package to Tong on or about November
30, 2015. HR, appellant. He stated that he put the documents into an envelope
and attached the cover letter to that envelope, then placed the cover letter and
packet into another envelope.

He stated that he used this method because, “I

didn’t want Mr. Tong getting involved or looking at this” because he had nothing
to do with OIG’s process. Id. He testified he has used this method before with
Tong and documents that would be sent up to the DRB.

The appellant never

discussed with Tong the package of documents, that the appellant was the subject
of a DHS OIG investigation or nature or circumstances of the DHS OIG
interview. The appellant testified he sent the package to Tong because “knowing
that this may end up in a disciplinary action ... I wanted to make sure that
everything that I put together for my defense got into the file.” Id. He stated that
he expected DHS OIG to produce an ROI to management

in this case, Tong

because he handled labor and employee relations issues - and that a file would be
sent to the DRB in Washington for potential action. He testified that he had prior
experience with OIG wherein he provided a polygraph result, but OIG lost it. He
therefore stated he did not trust OIG to produce a complete file. He denied that
he attempted to influence the investigation and testified that his sending the

7 The agency did not include the second packet in this specification.

31
package to Tong did not violate the DHS OIG instruction because he did not
orally convey the information. Id.
I find that the materials contained in the package of information was
relevant to the DHS OIG investigation and providing the package to Tong
constituted discussing the nature of this interview with him. I find the appellant’s
testimony that he submitted these documents to Tong solely so that they would be
forwarded to the DRB is not credible because his testimony is inconsistent with
his statement in the cover letter, “hope this helps to shed some light and clear up
some issues.” IAF-1, Tab 13 at 61. I find the clear meaning of the cover letter is
that these documents were directed to Tong for his use and to somehow sway him
regarding the investigation. I further find that by sending the documents to Tong,
the appellant disclosed investigative information to an individual outside DHS
OIG and not involved with the investigation.
Accordingly, I find that providing the package to Tong violated the
nondisclosure warning.
Specification No. 1 is SUSTAINED.
Specification No. 2:
The agency contends that after his DHS OIG interview on November 24,
2015, the appellant approached Perez and “solicited a statement from him
regarding CBPO Demara.” IAF-1, Tab 12 at 6. Perez was not involved in the
DHS OIG investigation and the agency contends that the appellant disclosed the
nature of the investigation to Perez, in violation of the warning not to disclose
investigative information. Id.
Perez wrote a statement averring:
I [sic] writing this account as a witness of several times that Officer
Demara had been at our office located in the north side of the cargo
dock looking for Officers Martin or Dibene in their capacity of
Union Representatives. On some of those occasions Officer Demara
had come to complain about the Port Supervisors using profane and
derogatory language when referring to the supervisor that she was

32
talking about. I was present but did not engage in the conversation
with her. Several times Officer Demara will come back to the SRI
Office to talk to Officer Martin or Dibene they all will leave and
talked outside the door about their business, I was not privy of their
conversation, but they will burst into laugh from time to time this
will go on for several minutes. In one specific occasion after Officer
Martin came back from the hospital for a heart related problem
Officer Demara came back to our office to welcome Officer Martin
back to work and jokingly asked him if the doctor had attached his
balls back while in the hospital. We all laughed about it and went
back to our work. (Grammar and punctuation in original)
IAF-2, Tab 16 at 14. This statement was included in the package of documents
the appellant sent to Tong on November 30, 2015.
Perez testified that on an unknown date, the appellant asked him to write a
memorandum regarding conversations he had heard in the office between the
appellant and Demara. HR, Perez.

He testified that at the time the appellant

made his request, it was common knowledge that the appellant was being
investigated by DHS OIG.

Perez could not recall if he learned this from the

appellant or from another source; however, Perez was clear that the appellant did
not discuss the substance of any interviews he had with DHS OIG. Id.
On June 7, 2016, Perez was interviewed by DHS OIG. IAF-2, Tab 16 at
13; IAF-1, Tab 14 at 106. A memorandum of activity prepared by a special agent
summarizing the interview in pertinent part:
CBPO Perez stated that sometime in the early months of 2016, CBPO
Martin approached him and informed him that he (CBPO Martin)
was being investigated for “inappropriate actions with Officer
Demara.” CBPO Martin asked CBPO Perez to write a statement
recalling incidents where Cynthia Demara, CBPO, SLU/POE, had
used profanity and made a joke referencing CBPO Martin’s genitalia.
CBPO Perez willingly agreed to write the letter and provided it
directly to CBPO Martin shortly after.
CBPO Perez recalls CBPO Martin approached him in the new
prosecutions office (SRI) and asked him to write the letter. CBPO
Perez could not recall if anyone else was present at the time CBPO
Martin asked him write the letter however, Rudolfo Dibene and

33
Wendy Luna, CBPOs, SLU/POE are also assigned to the SRI and
may have been present.
IAF-1, Tab 14 at 106.
At that time, he provided a sworn statement stating:
Officer Martin approached me and asked me to write a letter to attest
to conversations in the former SRI office with Officer Demara to the
best of my recollection the request was made in 2016 after we have
already moved to the new SRI office. I wrote the statement and
provided it to him directly. The letter is attached.
IAF-2, Tab 16 at 13.
At first, Perez testified that the memorandum was complete and accurate.
HR, Perez.

However, Perez was represented at the interview by CBPO Steve

Ponce. IAF-1, Tab 14 at 106. On March 1, 2017, Ponce wrote a memorandum
stating:
On or about June 7, 2016, acting in the capacity of Chief Steward,
NTEU Chapter 116, I sat in on an interview of Officer Edgar Perez
concerning a memo he wrote on behalf of Officer Joseph Martin.
The interview took place at the San Luis POE. During that interview
I do not recall Officer Perez saying that Officer Martin had told him
that he was under investigation for inappropriate actions with Officer
Demara. END.
IAF-1, Tab 11 at 29. Having reviewed this statement, Perez agreed he did not
make the statement to DHS OIG, just that it was common knowledge that an
investigation was being conducted. HR, Perez.
The appellant testified that he received a “cease and desist letter” in
September 2015, and through his contacts at the national office of the NTEU and
the grapevine, he learned that Demara had filed complaint of sexual harassment.
HR, appellant.

He discussed this with Dibene, and Dibene recalled several

instances when Demara had been in their office and that Perez was also present.
Thereafter, he talked with Perez and asked if he recalled Demara coming to the
office after the appellant got out of the hospital and she asked him, “Did you have
your balls reattached?” Id.

Perez said he recalled that conversation and the

appellant asked him to write a statement regarding that conversation. He testified

34
that he did not have to explain to Perez why he needed the statement “because
everybody already knew” because Demara had already been telling everyone that
she had file an EEO complaint against him.

Id.

He testified that he never

discussed with Perez that he had been interviewed by DHS OIG, the nature of the
DHS OIG investigation, or the content of the interview.

I note that the

memorandum of activity summarizing the appellant’s interview on November 24,
2015, states that the appellant was already aware of the sexual harassment
allegations made against him. IAF-1, Tab 12 at 50. Further, in a sworn statement
dated November 24, 2015, the appellant stated:
I was interviewed by OHS/OIG on 11/24/15 in Tucson, Arizona
concerning sexual harassment, I was aware of the claim made
because NTEU had given me some in info about the claim and that
Mrs. Demara had made the complaint.
Id. at 57.
Dibene testified that he represented the appellant at his November 24, 2015
interview. HR, Dibene. He testified; however, that he knew that Demara had
filed a complaint against the appellant prior to the OIG interview - he had heard
from the national union and it had “gotten around the port.” Id. In that regard,
he wrote a statement similar to Perez’s. IAF-1, Tab 13 at 63. The statement was
dated November 3, 2015, and Dibene testified he did not back date the statement.
Id. \ HR, Dibene.
I find that the appellant knew that Demara had filed a complaint prior to his
November 24, 2015 DHS OIG interview and further find he was aware of this at
least as of November 3, 2015. I find that the appellant requested that Dibene
write a statement on or before November 3, 2015. I further find that the appellant
had sufficient information prior to his interview to prompt him to request a
statement from Perez (and Dibene) and that he did request such statements. Most
importantly, the agency has not established by preponderant evidence that the
request for the Perez statement was made after the interview and therefore has

35
failed to prove that the request for the Perez statement was made after the
appellant received the instruction not to disclose investigative information.
Specification No. 2 is NOT SUSTAINED.
Because at least one specification is sustained, Charge No. 3 is
SUSTAINED. Greenough, 73 M.S.P.R. at 657.
Affirmative defenses.
An agency’s decision may not be sustained if the employee shows:
(1) harmful error in the application of the agency’s procedures in arriving at such
decision; (2) the decision was based on a prohibited personnel practice as
described in 5 U.S.C. § 2302(b); or (3) the decision was not in accordance with
law. 5 C.F.R. § 1201.56(c); 5 U.S.C. § 7701(c)(2); see Ray v. Department of the
Army, 97 M.S.P.R. 101, U 12 (2004), aff’d, 176 F. App’x 110 (Fed. Cir. 2006).
An appellant has the burden of proving these affirmative defenses by
preponderant evidence. 5 C.F.R. § 1201.56(b)(2)(i)(C).
Harmful error:
The burden is on the appellant to prove a claim of harmful error. “Harmful
error” is “[e]rror by the agency in the application of its procedures that is likely
to have caused the agency to reach a conclusion different from the one it would
have reached in the absence or cure of the error.

The burden is upon the

appellant to show that the error was harmful, i.e., that it caused substantial harm
or prejudice to his or her rights.”

5 C.F.R. §§ 1201.4(r), 1201.56(b)(2)(i)(C).

Thus, the appellant must prove there was a law, rule or regulation applicable to
his removal; that the agency did not follow it; and that, if it had been followed,
the agency was likely to reach a different decision.

See Defense Intelligence

Agency v. Department of Defense, 122 M.S.P.R. 444, If 14 (2015); Goeke v.
Department of Justice, 122 M.S.P.R. 69, | 17 (2015); Stephen v. Department of
the Air Force, 47 M.S.P.R. 672, 681, 685 (1991).

36
The appellant alleges “the DHS OIG investigation may have violated the
Federal Service Labor-Management Relations Statute, 5 U.S.C. §§ 7101-7135, by
interfering with, restraining, and coercing employees in the exercise of rights
protected under the Statute.
The Board has the authority to determine whether an agency’s conduct
constituted an unfair labor practice in an appeal from an otherwise appealable
action under Chapter 75.

Marshall v. Department of Veterans Affairs, 106

M.S.P.R. 478, If 15 (2007).
The appellant was acting in his capacity of a union official engaged in
grievance activity in each of the three specifications set forth in Charge No. I.8 It
is an unfair labor practice for an agency “to interfere with, restrain, or coerce any
employee in the exercise by the employee of any right under this chapter....”
5 U.S.C. § 7116(a)(1). If the agency disciplines an employee for actions taken in
the course of processing a grievance, and those actions are not, in fact, in
violation of the applicable statutes or regulations, then the agency has interfered
with the employee’s rights and committed an unfair labor practice.

National

Treasury Employees Union v. Federal Labor Relations Authority, 791 F.2d 183,
186 (D.C. Cir. 1986).
The Authority has held that an agency’s right to determine its internal
security practices include the policing of its own employees.

The right to

determine its internal security practices also includes the right to determine the
investigative techniques management will employ to attain its internal security

8

I previously noted that the Board declined to decide whether to establish a union
representative - bargaining unit member privilege as recognized by the FLRA. See
IAF-1, Tab 31; Berkner v. Department of Commerce, 116 M.S.P.R. 277,
7, 8 (2011).
However, even if such privilege was recognized, I would find that it was waived when
the bargaining unit employees that met with the appellant cooperated with DHS OIG
and provided it with the substance of the conversation. Moreover, I would find that the
agency had an extraordinary need to conduct an investigation. Id. at f 11.

37
objectives. Department of the Treasury, U.S. Customs Service, El Paso, Texas,
56 F.L.R.A. 398, 403 (2000).
Under long-standing precedent, where management shows a link, or
reasonable connection, between its objective of safeguarding its
personnel, property or operations and the investigative technique
designed to implement that objective, a proposal that “conflicts
with” the selected investigative technique directly interferes with
management’s right under section 7106(a)(1).
Id.

I find that electing to record the appellant was a proper exercise of

management’s rights.
The Board has held that, “in the absence of gross insubordination or threats
of physical harm, an employee may generally not be discharged for rude or
impertinent conduct in the course of presenting grievances.” Social Security
Administration v. Burris, 39 M.S.P.R. 51, 58 (1988) (quoting Kennedy, 22
M.S.P.R. at 194), aff’d, 878 F.2d 1445 (Fed. Cir. 1989) (Table), cert, denied, 493
U.S. 855 (1989). Ftowever, the protections afforded to the filing of grievances
and to statements made within them are not absolute. The Board has found that
where there has been abusive behavior during grievance hearings and where
actions have been taken in bad faith, an employee may be disciplined for
grievance-related conduct under the efficiency of the service standard. Id. (citing
Farris, 14 M.S.P.R. 568).
In Farris, during a grievance meeting with management, the appellant was
found to have become angry, to have told the management official in a loud voice
that he despised him, to have called him a “pompous ass,” and a “baby.” Farris,
14 M.S.P.R. at 571. The appellant was also found to have told the management
official that he would “ruin” him as a supervisor, and that he could knock him to
the ground and stomp his teeth out, but that he would not do so. Id. In addition
to the words which were used toward the management official at the grievance
meeting, the appellant was found to have blocked the management official’s exit
from the hearing room, to have crumpled some of the management official’s

38
sheets of paper and tossed them over the official’s head, to have taken this
official's keys and tossed them off the table and to have taken a pencil from
behind the management official’s ear and thrown it over his head. Id. The Board
found such conduct “was beyond the protective seal of the act.” Id. a 575. “We
perceive the admitted misconduct to be of a severe nature rather than mere
understandable anger in the course of disagreements over matters under
discussion.” Id.
I sustained, above, Charge No. 1, Specification No. 3, and thus find that the
agency did not commit an unfair labor practice when he was disciplined for that
misconduct. NTEU, 791 F.2d at 186. More importantly, I would have sustained
Specification No. 2 if the specification had not narrowed the charge from conduct
unbecoming to “implying that she should provide you with sexual favors in order
for you to represent her,” as the appellant’s statement to Demara was
inappropriate. Id.

I would not have sustained Specification No. 1 even if the

specification had not narrowed the charge because the proven conduct did not rise
to the level of conduct unbecoming. Because I find that the agency could have
properly disciplined the appellant for his misconduct set forth in two of the three
specifications of Charge No. 1, I find the agency did not interfere with his rights
and did not commit an unfair labor practice.
Due process:
The appellant contends that DHS OIG9 may have violated his 4th
amendment right to privacy when it recorded conversations to which he was a
party without his consent. However, federal law allows such recordings when a
person acting under color of law is a party to the communication or one of the
parties to the communication has given prior consent to the recording.

See

18 U.S.C. § 2511 (2)(c); see also Wenzel v. Department of the Interior,
9 I note that DHS OIG is a nonparty agency, separate from Customs and Border
Protection (CBP).

39
33 M.S.P.R. 344, 352 (1987) (citing Middleton v. Department of Justice,
23 M.S.P.R. 223, 226 (1984) (MSPB has held that taped conversations between
an employee and an informant are not illegal where one party consents to the
taping)), aff’d, 837 F.2d 1097 (Fed. Cir. 1987) (Table). In this case, one of the
parties to the communications (Lozoya and Demara) consented to the recordings.
Moreover, the Board has held that “the ‘exclusionary rule,’ derived from the
fourth amendment protection against unlawful search and seizure, does not apply
to administrative proceedings” such as the instant appeal.

Fahrenbacher v.

Department of Veterans Affairs, 89 M.S.P.R. 260, TJ 14, n.5 (2001) (citing Delk v.
Department of the Interior, 57 M.S.P.R. 528 (1993)).
For all of the above reasons, I find that DHS OIG did not violate the
appellant’s Fourth Amendment right to privacy and that the CD and transcript
evidence of the recorded telephone conversations and the surveillance are not
excludable on the basis that the recordings were (allegedly) illegally obtained.
Nexus.
The agency must show that there is a nexus between the sustained charge(s)
and either the employee’s ability to accomplish his or her duties satisfactorily or
some other legitimate government interest. See Merritt v. Department of Justice,
6 M.S.P.R. 585, 596 (1981), modified, Kruger v. Department of Justice,
32 M.S.P.R. 71, 75, n.2 (1987).
Here, there is an obvious nexus between the failure to follow instructions
and the efficiency of the service. Haebe v. Department of Justice, 81 M.S.P.R.
167, 184 (1999) (the Board has found that there is a nexus between the failure to
follow instructions and the efficiency of the service as such failure affects the
agency’s ability to carry out its mission).

Further, the agency has a right to

expect its workers to be honest, trustworthy, and candid. Ludlum, 87 M.S.P.R. at
Tf 28. Lack of candor strikes at the heart of the employment relationship, and it
directly impacts the efficiency of the service.

Chavez v. Small Business

40
Administration, 121 M.S.P.R. 168, f 7 (2014).

Lastly, the appellant’s conduct

unbecoming a CBP Officer was technically off-duty; however, the misconduct
involved a fellow agency employee and involved an agency manager and “must
be seen as clearly destructive of the supervisor-employee relationship.” Farris,
14 M.S.P.R. at 574.
Thus, I find that there is a nexus between the sustained charges and the
efficiency of the service.
Penalty
Where the agency has proven all of its charges, the Board will review the
agency-imposed penalty only to determine if the agency considered all the
relevant factors and exercised management discretion within the tolerable limits
of reasonableness.

Ellis v. Department of Defense, 114 M.S.P.R. 407, 111

(2010); Douglas, 5 M.S.P.R. at 305-06. In making this determination, the Board
must give due weight to the agency’s primary discretion in maintaining employee
discipline and efficiency, recognizing that the Board’s function is not to displace
management’s responsibility, but to ensure that managerial judgment has been
properly exercised. Ellis, 114 M.S.P.R. at

11; Douglas, 5 M.S.P.R. at 306. The

Board will modify or mitigate an agency-imposed penalty only where it finds the
agency failed to weigh the relevant factors or the penalty clearly exceeds the
bounds of reasonableness. Ellis, 114 M.S.P.R. at

11; Singletary v. Department

of the Air Force, 94 M.S.P.R. 553, | 9 (2003), aff’d, 104 F. App’x 155 (Fed. Cir.
2004).
In evaluating the penalty, the Board will consider, first and foremost, the
nature and seriousness of the misconduct and its relation to the employee’s
duties, position and responsibilities, including whether the offenses were
intentional or frequently repeated.

Gaines v. Department of the Air Force, 94

M.S.P.R. 527, Tf 9 (2003); see Batts v. Department of the Interior, 102 M.S.P.R.
27, Tf 11 (2006); see also Rackers v. Department of Justice, 79 M.S.P.R. 262, 282

41
(1998), aff’d, 194 F.3d 1336 (Fed. Cir. 1999) (Table). Other factors to consider
are: the clarity with which the employee was on notice of any rules that were
violated in committing the offense, or had been warned about the conduct in
question; his potential for rehabilitation; the effect of the offense upon the
employee’s ability to perform at a satisfactory level and its effect upon the
supervisor’s confidence in the employee’s ability to perform assigned duties; his
past disciplinary record; his past work record, including length of service,
performance on the job, ability to get along with fellow workers and
dependability; and consistency of the penalty with the applicable table of
penalties. Douglas, 5 M.S.P.R. at 305-06.
The deciding official, Mancha, set forth his consideration of the Douglas
factors in his decision letter and he further testified regarding his penalty
determination. IAF-1, Tab 8 at 53-55; HR, Mancha. The record reflects that he
considered the relevant factors, including the nature and seriousness of the
offense. Id. He stated that the charges against the appellant were “very serious”
and he testified that the lack of candor charge was the most serious.
Mancha.

HR,

He noted that the appellant holds a law enforcement position and is

properly held to a higher standard. IAF-1, Tab 8 at 53-55; HR, Mancha; Reid v.
Department of the Navy, 118 M.S.P.R. 396, | 26 (2012) (law enforcement officers
are held to a higher standard of conduct than other employees). He stated that he
had lost confidence in the appellant and in the appellant’s judgment.

HR,

Mancha; Woodford v. Department of the Army, 75 M.S.P.R. 350, 357 (1997) (loss
of confidence is a significant aggravating factor.) Mancha further found that the
appellant’s prior 30-day suspension an aggravating factor. IAF-1, Tab 8 at 53-55;
HR, Mancha; IAF-1, Tab 15 at 42. He believed the appellant was on clear notice
given the prior guidance he had received and prior counseling for making
sexually inappropriate comments to a co-worker.

IAF-1, Tab 8 at 53-55; HR,

Mancha; IAF-1, Tab 15 at 39-40. He also considered that removal was consistent
with the CBP Table of Offenses.

IAF-1, Tab 8 at 53-55; HR, Mancha.

He

42
considered alternative penalties, but determined a lesser penalty unwarranted
because of the appellant’s prior 30-day suspension and due to the likely impact
the lack of candor finding would have on the ability of the appellant to continue
as a law enforcement officer.10

HR, Mancha.

He also considered that the

appellant did not express any remorse for his actions.
M.S.P.R. at

Id.-, Singletary, 94

15 (an employee’s admission of his misconduct and his expression

of remorse are indicative of his rehabilitative potential and constitute a
significant mitigating factor when the employee notifies an agency of his
wrongdoing of his own volition, prior to the agency’s initiating an investigation
into the misconduct).
In mitigation, Mancha considered that the appellant had approximately 24
years of civil service and six years of military service. IAF-1, Tab 8 at 53-55;
HR, Mancha. He also testified that the appellant “had done good work as an
enforcement officer and seemed that he had a good track record.” HR, Mancha.
He testified that the appellant’s work performance

particularly his years of

service - made the decision to remove very difficult for him, but in the end, these
mitigating factors did not outweigh the many aggravating factors. Id.
Preponderant evidence therefore shows, and I find, that the deciding
official considered the relevant factors, and exercised his discretion within the
tolerable limits of reasonableness.
M.S.P.R.

Stoddard v. Department of the Army, 109

199, H 10 (2008); Douglas, 5 M.S.P.R. at 306.

Under the

circumstances, I cannot find that the agency’s choice of penalty was so excessive

10 Under Giglio v. United States, 405 U.S. 150 (1972), investigative agencies must turn
over to prosecutors, as early as possible in a case, any potential impeachment evidence
concerning the agents involved in the case. The prosecutor will then exercise his
discretion regarding whether the impeachment evidence must be turned over to the
defense.
A “Giglio-impaired” agent is one against whom there is potential
impeachment evidence that would render the agent’s testimony of marginal value in a
case. Thus, a case that depends primarily on the testimony of a Giglio-impaired witness
is at risk.” Solis v. Department of Justice, 117 M.S.P.R. 458, Tf 4, n.l (2012).

43
as to be an abuse of discretion, or that it exceeds the maximum reasonable
penalty. Accordingly, the agency’s action is AFFIRMED.
DECISION
The agency’s action is AFFIRMED.

FOR THE BOARD:

/S/
Glen D. Williams
Administrative Judge
NOTICE TO APPELLANT

This initial decision will become final on January 2, 2019, unless a
petition for review is filed by that date. This is an important date because it is
usually the last day on which you can file a petition for review with the Board.
However, if you prove that you received this initial decision more than 5 days
after the date of issuance, you may file a petition for review within 30 days after
the date you actually receive the initial decision. If you are represented, the 30day period begins to run upon either your receipt of the initial decision or its
receipt by your representative, whichever comes first.

You must establish the

date on which you or your representative received it. The date on which the initial
decision becomes final also controls when you can file a petition for review with
one of the authorities discussed in the “Notice of Appeal Rights” section, below.
The paragraphs that follow tell you how and when to file with the Board or one of
those authorities. These instructions are important because if you wish to file a
petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must

44
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing. A petition submitted by
electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https://e-appeal.mspb.govl.
NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is composed of three
members, 5 U.S.C. § 1201, but currently only one member is in place. Because a
majority vote of the Board is required to decide a case, see 5 C.F.R. § 1200.3(a),
(e), the Board is unable to issue decisions on petitions for review filed with it at
this time. See 5 U.S.C. § 1203. Thus, while parties may continue to file petitions
for review during this period, no decisions will be issued until at least one
additional member is appointed by the President and confirmed by the Senate.
The lack of a quorum does not serve to extend the time limit for filing a petition
or cross petition. Any party who files such a petition must comply with the time
limits specified herein.
For alternative review options, please consult the section below titled
“Notice of Appeal Rights,” which sets forth other review options.
Criteria for Granting a Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:

45
(a) The initial decision contains erroneous findings of material fact.
(1) Any alleged factual error must be material, meaning of sufficient weight to
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge’s credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge’s rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner’s due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition
for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and 1-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of
authorities, attachments, and certificate of service. A request for leave to file a
pleading that exceeds the limitations prescribed in this paragraph must be

46
received by the Clerk of the Board at least 3 days before the filing deadline. Such
requests must give the reasons for a waiver as well as the desired length of the
pleading and are granted only in exceptional circumstances. The page and word
limits set forth above are maximum limits. Parties are not expected or required to
submit pleadings of the maximum length. Typically, a well-written petition for
review is between 5 and 10 pages long.
If you file a petition or cross petition for review, the Board will obtain the
record in your case from the administrative judge and you should not submit
anything to the Board that is already part of the record. A petition for review
must be filed with the Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is received by you or your
representative more than 5 days after the date of issuance, 30 days after the date
you or your representative actually received the initial decision, whichever was
first. If you claim that you and your representative both received this decision
more than 5 days after its issuance, you have the burden to prove to the Board the
earlier date of receipt. You must also show that any delay in receiving the initial
decision was not due to the deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or under penalty of perjury (see
5 C.F.R. Part 1201, Appendix 4) to support your claim.
mail is determined by the postmark date.

The date of filing by

The date of filing by fax or by

electronic filing is the date of submission. The date of filing by personal delivery
is the date on which the Board receives the document.

The date of filing by

commercial delivery is the date the document was delivered to the commercial
delivery service. Your petition may be rejected and returned to you if you fail to
provide a statement of how you served your petition on the other party.
5 C.F.R. § 1201.4(j).

See

If the petition is filed electronically, the online process

itself will serve the petition on other e-filers. See 5 C.F.R. § 1201.14(j)(l).
A cross petition for review must be filed within 25 days after the date of
service of the petition for review.

47
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE OF APPEAL RIGHTS
You may obtain review of this initial decision only after it becomes final,
as explained in the “Notice to Appellant” section above. 5 U.S.C. § 7703(a)(1).
By statute, the nature of your claims determines the time limit for seeking such
review and the appropriate forum with which to file.

5 U.S.C. § 7703(b).

Although we offer the following summary of available appeal rights, the Merit
Systems Protection Board does not provide legal advice on which option is most
appropriate for your situation and the rights described below do not represent a
statement of how courts will rule regarding which cases fall within their
jurisdiction. If you wish to seek review of this decision when it becomes final,
you should immediately review the law applicable to your claims and carefully
follow all filing time limits and requirements,

Failure to file within the

applicable time limit may result in the dismissal of your case by your chosen
forum.
Please read carefully each of the three main possible choices of review
below to decide which one applies to your particular case. If you have questions
about whether a particular forum is the appropriate one to review your case, you
should contact that forum for more information.
(1) Judicial review in general. As a general rule, an appellant seeking
judicial review of a final Board order must file a petition for review with the U.S.
Court of Appeals for the Federal Circuit, which must be received by the court
within 60 calendar days of the date this decision becomes final.
§ 7703(b)(1)(A).

5 U.S.C.

48
If you submit a petition for review to the U.S. Court of Appeals for the
Federal Circuit, you must submit your petition to the court at the following
address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
(2) Judicial

or

EEOC

review

of

cases

involving

a

claim

of

discrimination. This option applies to you only if you have claimed that you
were affected by an action that is appealable to the Board and that such action
was based, in whole or in part, on unlawful discrimination. If so, you may obtain
judicial review of this decision—including a disposition of your discrimination
claims—by filing a civil action with an appropriate U.S. district court (not the
U.S. Court of Appeals for the Federal Circuit), within 30 calendar days after this
decision becomes final under the rules set out in the Notice to Appellant section,
above.

5 U.S.C. § 7703(b)(2); see Perry v. Merit Systems Protection Board,

582 U.S. ____ , 137 S. Ct. 1975 (2017). If the action involves a claim of
discrimination based on race, color, religion, sex, national origin, or a disabling
condition, you may be entitled to representation by a court-appointed lawyer and

49
to waiver of any requirement of prepayment of fees, costs, or other security. See
42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be found at their respective
websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx.
Alternatively, you may request review by the Equal Employment
Opportunity Commission (EEOC) of your discrimination claims only, excluding
all other issues. 5 U.S.C. § 7702(b)(1). You must file any such request with the
EEOC’s Office of Federal Operations within 30 calendar days after this decision
becomes final as explained above. 5 U.S.C. § 7702(b)(1).
If you submit a request for review to the EEOC by regular U.S. mail, the
address of the EEOC is:
Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 77960
Washington, D.C. 20013
If you submit a request for review to the EEOC via commercial delivery or
by a method requiring a signature, it must be addressed to:
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, N.E.
Suite 5SW12G
Washington, D.C. 20507
(3) Judicial

review

pursuant

to

the

Whistleblower

Protection

Enhancement Act of 2012. This option applies to you only if you have raised
claims of reprisal for whistleblowing disclosures under 5 U.S.C. § 2302(b)(8) or
other protected activities listed in 5 U.S.C. § 2302(b)(9)(A)(i), (B), (C), or (D).
If so, and you wish to challenge the Board’s rulings on your whistleblower claims
only, excluding all other issues, then you may file a petition for judicial review
with the U.S. Court of Appeals for the Federal Circuit or any court of appeals of
competent jurisdiction.

The court of appeals must receive your petition for

50
review within 60 days of the date this decision becomes final under the rules set
out in the Notice to Appellant section, above. 5 U.S.C. § 7703(b)(1)(B).
If you submit a petition for judicial review to the U.S. Court of Appeals for
the Federal Circuit, you must submit your petition to the court at the
following address:
U.S. Court of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Additional information about the U.S. Court of Appeals for the Federal
Circuit is available at the court’s website, www.cafc.uscourts.gov. Of particular
relevance is the court’s “Guide for Pro Se Petitioners and Appellants,” which is
contained within the court’s Rules of Practice, and Forms 5, 6, 10, and 11.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
Contact information for the courts of appeals can be found at their
respective websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx

